<html>
<title> - MIXED MARTIAL ARTS: ISSUES AND PERSPECTIVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






              MIXED MARTIAL ARTS: ISSUES AND PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 8, 2016

                               __________

                           Serial No. 114-179




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                        
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-053                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. McKINLEY, West Virginia     BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Missouri               KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)
















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, prepared statement..........................     4
Hon. Markwayne Mullin, a Representative in Congress from the 
  State of Oklahoma, prepared statement..........................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    43

                               Witnesses

Hon. Jeff Denham, a Representative in Congress from the State of 
  California.....................................................     7
Jeff Novitzky, Vice President, Athlete Health and Performance, 
  Ultimate Fighting Championship.................................     8
    Prepared statement...........................................    11
Lydia Robertson, Treasurer, Association of Boxing Commissions and 
  Combative Sports...............................................    14
    Prepared statement...........................................    16
Ann McKee, M.D., Professor of Neurology and Pathology, 
  Alzheimer's Disease Center, Boston University, Neuropathology 
  Core, Boston University........................................    18
    Prepared statement...........................................    20
Randy Couture, President, Xtreme Couture.........................    25
    Prepared statement...........................................    27

                           Submitted material

MMA contract.....................................................    45
Article entitled, ``UFC antitrust lawsuit: Inside Bellator's 
  contracts and the effect on plaintiff fighters,'' Bloody Elbow, 
  March 4, 2015..................................................    69

 
              MIXED MARTIAL ARTS: ISSUES AND PERSPECTIVES

                              ----------                              


                       THURSDAY, DECEMBER 8, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:57 a.m., in 
room 2322, Rayburn House Office Building, Hon. Michael C. 
Burgess, M.D., (chairman of the subcommittee) presiding.
    Present: Representatives Burgess, Lance, Guthrie, Mullin, 
Schakowsky, Kennedy, Rush, and Welch.
    Staff Present: Grace Applebe, Staff Assistant; Graham 
Dufault, Counsel, Commerce, Manufacturing, and Trade; Blair 
Ellis, Digital Coordinator and Press Secretary; Melissa 
Froelich, Counsel, Commerce, Manufacturing, and Trade; Giulia 
Giannangeli, Legislative Clerk, Commerce, Manufacturing, and 
Trade; A.T. Johnston, Senior Policy Advisor; Paul Nagle, Chief 
Counsel, Commerce, Manufacturing, and Trade; Dan Schneider, 
Press Secretary; Olivia Trusty, Professional Staff, Commerce, 
Manufacturing, and Trade; Dylan Vorbach, Deputy Press 
Secretary; Michelle Ash, Minority Chief Counsel, Commerce, 
Manufacturing, and Trade; Lisa Goldman, Minority Counsel, 
Commerce, Manufacturing, and Trade; Chris Knauer, Minority 
Staff Director, Oversight and Investigations; Elizabeth Letter, 
Minority Professional Staff, Oversight and Investigations; Dan 
Miller, Minority Staff; Caroline Paris-Behr, Minority, 
Commerce, Manufacturing, and Trade; and Matthew Schumacher, 
Minority Press Assistant.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. The subcommittee on Commerce, Manufacturing, 
and Trade will now come to order.
    The chair recognizes himself for 5 minutes for the purposes 
of an opening statement.
    And good morning to all of our witnesses. We appreciate you 
being with us this morning.
    Before we turn to the matter at hand, I do want to make 
note of the fact that this is our last hearing before the 114th 
Congress. I certainly want to thank my vice chairman, Chairman 
Lance of New Jersey, and Ranking Member Schakowsky of Illinois 
for their hard work and the hard work of all of our members.
    The Energy and Commerce Committee itself is probably one of 
the most productive committees on Capitol Hill. The Commerce, 
Manufacturing, and Trade Committee has justifiably earned the 
reputation as the think tank of the Energy and Commerce 
Committee. And I would just note to the members on the dais 
that we have passed over two dozen pieces of legislation from 
members on both sides of the dais over the past 2 years, one of 
the most productive legislative accomplishments for this 
subcommittee in several years.
    So, thanks to the participation of all of our members, I 
believe, no pun intended, we have been punching above our 
weight. And I am happy to close out this Congress with my 
colleagues on the Commerce, Manufacturing, and Trade Committee 
and look forward to a busy agenda for next year.
    Once more, we turn our attention to something where this is 
plowing new ground for Congress. As broad and varied as our 
jurisdiction is, mixed martial arts, especially the industry of 
mixed martial arts, is probably a new concept to some of us. In 
fact, it is to your chairman.
    As the industry continues to evolve swiftly, it seems that 
now is the time to bring Congress up to speed on mixed martial 
arts and understand if there is a role that Congress should be 
playing in this multibillion-dollar industry. I want to thank 
Congressman Mullin for making sure this issue was on the 
subcommittee's agenda.
    The latest major mixed martial arts event drew a little 
under 2 million viewers and around 1.5 million pay-per-view 
buys. It generated $18 million at the gate, $1.5 million of 
which went to the State of New York in taxes. Perhaps most 
importantly, since about half of the mixed martial arts fan 
base is comprised of millennials, the event created 14 billion 
social media impressions, which Nielsen now tracks.
    The winner at the top of the fight card made $40 million. 
That doesn't match what a top boxing championship fight brings, 
but there is no longer a doubt that mixed martial arts is ready 
for prime time, and there is certainly no doubt that it is an 
economic driver.
    In our previous sports hearings, we have grappled primarily 
with athlete safety and the implications of safety rules on 
youth sports. The safety of MMA fighters is of importance, and 
this will figure into our broad discussion of how the industry 
works and how it is regulated at the State level.
    The politics around combat sports are tough. To some 
degree, fighters assume risks. All 50 States have legalized 
mixed martial arts and regulate it to some degree. State 
athletic commissions have generally promulgated rules that 
prohibit certain maneuvers in the ring, require certain 
equipment, and provide for athlete drug testing. Some States 
are stricter than others, depending upon a State's resources, 
how popular the State is as a venue for mixed martial arts.
    As with boxing, fighters must generally obtain a license to 
fight. States and the major promotions also require physicians 
to be present and make certain that the fighters are healthy 
before, during, and after a bout.
    I thank the panelists, who represent a variety of interests 
and perspectives, for their participation today. I certainly 
look forward to a lively and interesting discussion.
    And I would like to yield then to the gentleman from New 
Jersey for his opening statement.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning and welcome to our hearing on Mixed Martial 
Arts.
    Before we turn to the matter at hand I note that this is 
our last hearing of the 114th Congress. I'd like to thank Vice 
Chairman Lance and Ranking Member Schakowsky for their hard 
work and the work of all of our Members. Thanks to the 
participation of all of our Members, we've been punching above 
our weight. I'm happy to close out the Congress with my CMT 
colleagues and look forward to next year's busy agenda.
    Once more we turn our attention to something Congress has 
not focused upon before. As broad and varied as our 
jurisdiction is, mixed martial arts-especially the industry of 
MMA-is probably a new concept to some of us. As the industry 
continues to evolve swiftly, now is the time to bring Congress 
up to speed on MMA, and understand if there is a role Congress 
should be playing in this multi-billion dollar industry. I also 
want to thank Congressman Mullin for making sure this issue is 
on the committee's agenda.
    The latest major MMA event drew a little under 2 million 
viewers and around 1.5 million pay-per-view buys. It also 
generated about $18 million at the gate, $1.5 million of which 
went to New York in taxes.
    Perhaps most importantly-since about half of MMA's fan base 
is comprised of millennials-the event created 14 billion 
``social media impressions,'' which Nielsen now tracks.
    The top ticket only received, combined, $4 million. That 
doesn't match what a top boxing championship fight brings, but 
there's no longer a doubt that MMA is ready for primetime or 
that it is an economic driver.
    In our previous sports hearings, we grappled primarily with 
athlete safety and the implications of safety rules on youth 
sports.
    The safety of MMA fighters is of utmost importance and this 
will figure into our broad discussion of how the MMA industry 
works and how it is regulated at the state level.
    The politics around combat sports are tough. To some 
degree, fighters assume risks. All 50 states have legalized MMA 
and regulate it to some degree. State athletic commissions have 
generally promulgated rules that prohibit certain maneuvers in 
the ring, require certain equipment, and provide for athlete 
drug testing.
    Some states are stricter than others, depending on the 
state's resources and how popular the state is as a venue for 
MMA.
    Just like with boxing, fighters must generally obtain a 
license to fight. States and the major promotions also require 
physicians to be present and make sure fighters are healthy 
before and during a bout.
    I thank the panelists, who represent a variety of interests 
and perspectives, for their participation today and look 
forward to a lively and interesting discussion.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you, Mr. Chairman.
    In my three terms serving on the Energy and Commerce 
Committee, this has been by far the most productive session for 
the Commerce, Manufacturing, and Trade Subcommittee, due in 
large part to the leadership of Dr. Burgess and the hard work 
of the committee staff.
    Through the highly successful ``disruptor'' series, CMT has 
asserted itself as the principal subcommittee supporting the 
technological innovations our economy needs to thrive. We have 
acted on the information learned from these educational 
hearings by passing bipartisan, targeted legislation and 
beginning the first legislative update to the Federal Trade 
Commission in 20 years.
    We have also passed legislation to help consumers,for 
example, to review their experiences without businesses 
engaging in retribution. Under Dr. Burgess's leadership, CMT 
has also provided vigorous oversight of the Takata airbag 
recall, the largest safety recall in automotive history.
    Congratulations, Dr. Burgess, on an exceptionally effective 
session, and I look forward to continuing our work on these 
important issues and other issues in the full committee next 
Congress.
    I also take a moment to recognize outgoing Chairman Fred 
Upton of the full committee. And today is a historic and 
important day, as the 21st Century Cures Act goes to the 
President's desk.
    At this season, I wish everybody a Merry Christmas and a 
peaceful new year, and particularly safety to our troops, our 
magnificent troops across the globe, who protect us and the 
American people in general.
    And, Mr. Chairman, I yield back the balance of our time.
    Mr. Burgess. The chair thanks the gentleman for his 
remarks. Notes the gentleman went a little bit over, but since 
his remarks seemed so important and you were thanking the 
chairman, I would ask unanimous consent that the gentleman be 
allowed to do that.
    And, of course, I want to thank the ranking member of the 
committee, Ms. Schakowsky from Illinois, for being here, as 
well, and for a very productive 2 years on the Commerce, 
Manufacturing, and Trade Subcommittee and recognize you for 5 
minutes for the purpose of an opening statement.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. And I want to 
thank you too. It has been a very interesting and, I think, 
productive session of Congress. And it has been a personal 
pleasure to be able to serve with you as the chairman and 
myself as the ranking member.
    I also want to wish everyone a Merry Christmas and a Happy 
Hanukkah, which actually happen to fall at the same time.
    And then to the business of the morning.
    When I first heard that we would be having a hearing on 
mixed martial arts, I was surprised. I confess I am not an MMA 
fan. Aren't you shocked? I have had to learn a little more 
about MMA in preparation for the hearing, and I don't think 
that it is going to be my new hobby. However, you don't have to 
be an MMA fan to recognize the need for greater negotiating 
power and stronger protections for MMA fighters.
    Our colleague Congressman Mullin used to be an MMA fighter. 
I chatted with him about his sport, and yesterday I met with 
other MMA fighters in my office. The lack of leverage that they 
have in their contract negotiations is, frankly, pretty 
shocking. And that comes through when you look at differences 
in pay and benefits between MMA and other sports.
    Congressman Mullin comes to this issue as an MMA fighter; I 
come to it as a fighter for workers' rights and safety. But 
today I think that puts us on the same side. When I saw what 
MMA is, the mother in me came out a little bit. I don't know 
why you would do that to yourself, but MMA fighters love their 
sport, and they should be able to fight. I do, however, want to 
make sure that they aren't put at unnecessary risk.
    Safety for fighters and the structure of MMA are very 
interlinked. Generally speaking, fighters only get paid if they 
are in a match. They have to secure their own health insurance, 
because the promoters' insurance just covers injuries within a 
match, not the injuries that frequently happen in weeks of 
training beforehand. That forces fighters to push themselves, 
sometimes at great personal risk.
    MMA can involve blows to the head, and, for me, that 
immediately raises concern about brain injury, which we have 
seen in other contact sports. Two months ago, 25-year-old 
Jordan Parsons became the first MMA fighter to be diagnosed 
with chronic traumatic encephalopathy, CTE. This should not be 
surprising. Research has shown that repetitive hits to the head 
have cumulative long-term effects on brain function and 
physiology and may increase the risk of CTE.
    CTE is not new to members of the Energy and Commerce 
Committee. Last March, in response to a question I raised, a 
National Football League representative admitted for the very 
first time a definite link between football and CTE. Dr. McKee, 
who we will hear from today, was at that roundtable. 
Representatives Frank Pallone, Gene Green, and Diana DeGette 
and I have also been pressing the National Hockey League to do 
more to reduce the risk of head injuries. MMA is just the 
latest sport where CTE is an issue.
    We have seen some progress at the state level already. New 
York State included a provision in its MMA legislation that 
recognizes the risk of brain trauma and requires MMA promoters 
to carry insurance to cover treatment of life-threatening brain 
injuries.
    If, knowing the risks, adults still want to be part of MMA 
fights, I guess that is all right, but fighters and promoters 
should take some basic precautions, and fighters should have 
the leverage to stand up for their own safety.
    In Dr. McKee's written testimony, she provides some 
recommendations on the risk of brain injuries in MMA, how they 
can be reduced. We also need to support further research on the 
connection between CTE and contact sports so that adults know 
the risk.
    Research is especially critical, given the risk to young 
athletes. According to ESPN, an estimated 3.2 million kids 13 
and under now participate in MMA. Kids can start classes as 
early as 6 years old. Some leagues ban head hits for younger 
fighters. However, Dr. Rebecca Carl from the American Academy 
of Pediatrics' Council on Sports Medicine and Fitness warns 
that kids don't need to be hit in the head to experience brain 
injury. ``The force of being thrown to the ground is enough to 
injure the brain.'' That is a quote. And to continue the quote, 
``I don't think there is enough data available to say that MMA 
is safe for children.''
    I want to explore how MMA can be safer and fairer for 
fighters of all ages.
    I want to thank the witnesses for being here today, and I 
look forward to your testimony.
    I yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair now recognizes the gentleman from Oklahoma, Mr. 
Mullin, 5 minutes to summarize your opening statement, please.

OPENING STATEMENT OF HON. MARKWAYNE MULLIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Mullin. Thank you, Mr. Chairman.
    And real quick, maybe you misspoke in something you said a 
while ago, that the top card, the top fighter received over $40 
million in payout. Wasn't even close, which I know is just 
misspoken. The top ticket only received, combined, $4 million. 
Compared to boxing, it is a big difference. I just want to make 
sure that everybody understands the difference on that one.
    Mr. Burgess. The chair thanks the gentleman. We will 
correct the record.
    Mr. Mullin. Thank you, Mr. Chairman, for holding this 
important hearing to examine a growing sport that I am 
passionate about like MMA. I also want to thank Chairman Upton 
for his help in getting us to this point. This informational 
hearing is vital to educate the members of this committee and 
the public on the history, current status, and the future of 
MMA.
    As we look at varying issues, from contracts to health, 
from anti-doping to conflicts of interest, I hope we can keep 
one thing in mind: It is the fighters. Without them, there is 
no UFC, there is no Bellator, there is no sport. The promoters 
have done so much to grow the sport, but the fighters are what 
make this sport so compelling and so great to watch.
    The sport is much different than when I was younger. There 
is more media, more money, and with that brings more fans. As 
MMA continues to grow, we need to make sure we keep it growing 
with everybody.
    Before I yield back, I want to highlight my bill, the 
Muhammad Ali Expansion Act. Although it is not the focus of 
this hearing, it is certainly relevant. And I look forward to 
hearing the perspectives of our witnesses on the legislation, 
on the issues it addresses with fighters' contracts, the 
ranking system, and the role of managers and promoters.
    It is my hope that all members of this committee leave this 
hearing with a better understanding of MMA and will continue 
working in the next Congress on the issue that affects all 
parties in this room, especially the fighters.
    Thank you, Mr. Chairman. I yield back.
    Mr. Burgess. The chair thanks the gentleman.
    We will conclude now with member opening statements, seeing 
no other members wishing to offer an opening statement. The 
chair would remind members that, pursuant to committee rules, 
all members' opening statements will be made part of the 
record.
    We do want to thank all of our witnesses for being here 
today, taking time to testify before the subcommittee. Today's 
witnesses will have an opportunity to give opening statements, 
followed then by questions from members.
    Our witness panel for today's hearing includes the 
Honorable Jeff Denham from the State of California, the 10th 
District,thank you for being here this morning, Representative. 
Mr. Jeff Novitzky, the vice president of athlete health and 
performance at the Ultimate Fighting Championship; Ms. Lydia 
Robertson, treasurer at the Association of Boxing Commissions 
and Combative Sports; Dr. Ann McKee, professor of neurology and 
pathology at Boston University School of Medicine; and Mr. 
Randy Couture, president at Xtreme Couture.
    We appreciate each of you being here today. We will begin 
our panel with Representative Denham.
    And, Representative Denham, you are recognized for 5 
minutes for an opening statement, please.

    STATEMENTS OF THE HON. JEFF DENHAM, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF CALIFORNIA; JEFF NOVITZKY, VICE 
 PRESIDENT, ATHLETE HEALTH AND PERFORMANCE, ULTIMATE FIGHTING 
CHAMPIONSHIP; LYDIA ROBERTSON, TREASURER, ASSOCIATION OF BOXING 
COMMISSIONS AND COMBATIVE SPORTS; ANN MCKEE, M.D., PROFESSOR OF 
  NEUROLOGY AND PATHOLOGY, ALZHEIMER'S DISEASE CENTER, BOSTON 
 UNIVERSITY, NEUROPATHOLOGY CORE, BOSTON UNIVERSITY; AND RANDY 
               COUTURE, PRESIDENT, XTREME COUTURE

               STATEMENT OF THE HON. JEFF DENHAM

    Mr. Denham. Thank you, Mr. Chairman.
    I would like to thank the chairman and the ranking member 
for allowing me to testify today. I also want to thank 
Representative Mullin for bringing this issue to the forefront. 
It is an important issue to address and make sure there are 
some minimum mandatory requirements as we move forward with 
this great sport.
    I had the opportunity to enjoy another great sport, boxing. 
I spent a lot of time in and around the ring but also saw the 
challenges and the damage that a very difficult sport can have, 
the lasting impacts on those that engage in it.
    I believe that we need to have some minimum standards, 
because, oftentimes, if the health of a fighter is not 
addressed, you can have a fighter that gets back into the ring 
early or before they are completely healed. If that happens, 
that also lends itself to have irreparable long-term damage as 
well. And I have seen the lasting impacts of friends that have 
gotten back into the ring too early or before they were 
completely healed.
    So I do believe that the boxing industry has changed. In 
1996, the Professional Boxing Safety Act did make some changes. 
It focused on the physical well-being of boxers by establishing 
the minimum health and safety standards for professional 
boxing, with limited Federal oversight by the Department of 
Justice and the Federal Trade Commission. I don't want to see 
Congress insert itself so much that it really interferes with 
the great sport, but I do believe that there needs to be some 
minimum mandatory requirements.
    I also believe that, as any business, you hire people, you 
expect them to operate on your behalf. So I hire a manager, 
much like I would hire a chief of staff or somebody to manage 
my company, I expect them to operate on my behalf. And so I 
think there needs to be some transparency between the manager 
and any type of payment, outside of the fighter, that they may 
be receiving.
    In the Ali Act in 2000, after the 1996 initial act, the Ali 
Act addressed that issue. It also addressed some consistency 
across the States to make sure that boxing commissions across 
every State had those minimum contracts as well.
    And much like boxers, MMA fighters also receive a card, but 
I think that it is important that we have a consistent health 
inspection for the safety of the fighter to make sure that they 
are prepared to go back into the ring, back into the battle, 
and they are fully healthy and prepared to do so.
    So those minimum standards, I think, are very important 
across the country, making sure that our State boxing 
commissions or, in this case, MMA fighters also have that same 
safety, health inspection, a clearance to get back into the 
ring so that their future is safe as well.
    There are other experts up here that will talk about the 
rankings and contract negotiations. I think those are important 
discussions to have right now, but I don't think that there is 
anything more important than the health and safety of the 
individual that is engaging in an incredible, great sport. I 
want to see MMA continue to flourish. I am a big fan. But, as a 
former boxer, I also know that the safety that can go with that 
sport needs to be addressed as well.
    So I am proud to be a coauthor of this bill and look 
forward to working with you as we have future hearings and 
future amendments and go through the continued process. This is 
something that I think is not only exciting to address, but it 
is something that is critically important to address. And, 
again, I want to thank Mr. Mullin for bringing this issue to 
the forefront.
    Thank you for allowing me to testify.
    Mr. Burgess. The chair thanks the gentleman.
    Mr. Novitzky, you are now recognized for 5 minutes for an 
opening statement.

                   STATEMENT OF JEFF NOVITZKY

    Mr. Novitzky. Thank you, Mr. Chairman, members of the 
committee. It is an honor to be up here today with my fellow 
witnesses. My name is Jeff Novitzky. I am the UFC's vice 
president of athlete health and performance. I would like to 
thank you for holding this hearing. I think it is important to 
recognize the significance we all place, and to mirror what 
Representative Denham just said, on the most important issue 
that we will talk about today, athlete health and safety.
    I would like to start off by giving the committee a brief 
history of my experience outside of the UFC and what ultimately 
led me to the UFC last year.
    In April of 2015, I retired from 22-plus years in Federal 
law enforcement in the United States. In 2002, I opened an 
investigation on a company known as BALCO Laboratories for the 
illegal distribution of athletic performance-enhancing drugs, 
or PEDs.
    While the case and subsequent cases that I worked in this 
arena focused on the illegal distribution of PEDs and not the 
athletes that used them, nevertheless the BALCO Laboratories 
investigation ended up involving some of the biggest names in 
sport in the world at the time who were athlete clients of 
BALCO: Barry Bonds, Marion Jones, dozens of Olympic athletes, 
boxers, NFL athletes, and several Major League Baseball 
players.
    The high-profile nature of the investigation steered many 
investigative leads my way over the course of my career and led 
me to subsequent investigations involving the distribution of 
PEDs to high-profile athletes. And finally, I conducted an 
investigation on professional cycling, including the United 
States Postal Service Cycling Team, whose members included 
Lance Armstrong.
    I estimate that throughout my career I spoke with between 
150 and 200 professional athletes who chose to use PEDs, and I 
always took the opportunity to ask them why they made that 
choice. And more often than not, the answer came down to one 
word, and that word was ``trust.'' They didn't trust that their 
teammates, who they were competing for playing time and 
contracts, weren't using. They didn't trust that their 
competitors weren't using. And, most importantly, they didn't 
trust that their sports organization really cared about the 
issue, and that doping was allowed to fester because there were 
not sufficient programs in place to catch as well as deter 
athletes from ultimately harming themselves and others.
    When I was first approached by the UFC to develop and 
implement their new anti-doping program, I saw this as an 
opportunity to change that tide in sentiment. The more I talked 
with UFC executives, I quickly realized that their passion and 
commitment to athlete health and safety was paramount. They 
told me repeatedly, ``We want the best anti-doping program in 
the world. We want to be the gold standard for not just combat 
sports but for all sports.'' I realized I could be part of a 
program within a sports organization that its athletes could 
trust and could be a positive influence toward athlete health 
and safety for not just the UFC but for all professional 
sports.
    I can confidently state that in the year and a half since 
our anti-doping program has been up and running, the UFC has 
put together the most comprehensive, robust anti-doping program 
in professional sports in the world.
    A major pillar of our program is the outsourcing of the 
administration of the program to the United States Anti-Doping 
Agency, or USADA, who is widely considered the most reputable 
anti-doping organization in the world.
    Earlier this year, the UFC renewed our commitment, a 5-year 
commitment, $1 million commitment, to the Professional Fighters 
Brain Health Study that is being conducted through the 
Cleveland Clinic. This commitment makes UFC the largest combat 
sports contributor to the study. We currently have 88 current 
and former UFC fighters enrolled in the study. It is done over 
longer periods of time to develop ways to improve safety in 
combat sports, along with other professional athletes exposed 
to repetitive head trauma.
    Another big development relating to fighter health and 
safety is the construction of the UFC's new Athlete Health and 
Performance Center. The goal of this state-of-the-art facility 
will be to provide our athletes, free of charge, with the best 
training, rehabilitation, nutrition education, and injury 
prevention practices available in the world. We will team with 
universities to conduct studies on our athletes to learn best 
practices as it comes to training, rehabilitation, brain 
health, nutrition, and weight management practices. We will use 
these studies to not only help UFC athletes but all 
professional athletes. The center is scheduled to be completed 
in the spring of 2017.
    As you can see, the UFC has taken concrete steps towards 
increasing safety standards and protocols, not just within our 
organization, not just throughout mixed martial arts and combat 
sports community, but across the board in the professional 
sports landscape.
    From our anti-doping program, which has been recognized by 
the media as the best anti-doping program in professional 
sports, our continuing education of athletes on topics relating 
to their health and safety, safer weight management guidelines 
and practices, our participation in brain studies through the 
Cleveland Clinic, and our new Athlete Health and Performance 
Center, we have made great strides to ensure all of our 
athletes compete on a level playing field, take proactive steps 
to protect their health and safety, and enable to them to lead 
fulfilling lives both in and out of competition.
    As an organization, we are not only looking to lead combat 
sports in this area but take a leadership role and set an 
example for all of professional sports.
    Thank you.
    [The prepared statement of Mr. Novitzky follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    
    Mr. Burgess. The chair thanks the gentleman.
    Ms. Robertson, you are recognized for 5 minutes, please, 
for an opening statement.

                  STATEMENT OF LYDIA ROBERTSON

    Ms. Robertson. I am serving as treasurer of the Association 
of Boxing Commissions. And just a little background on the 
organization: In the late 1980s, a group of concerned 
commission representatives got together in the hopes that they 
could standardize some safety regulations for the professional 
boxing industry. And, shortly thereafter, the bill known now as 
the Mohammed Ali Act came into being, and it helped unify those 
various States. So more and more states joined, because in the 
Muhammad Ali Act it specifies that if you do not have an 
authorized regulatory body from within the state, that you must 
use a different recognized organization. And every state wanted 
to participate.
    Not too long after that, the law was amended and now 
includes a lot of tribal governments. So we have about 75 
members that are housed within the U.S. borders and about 
another 70 members from outside our borders.
    The ABC, which is what we call the Association of Boxing 
Commissions is a 501(c)(3) nonprofit and maintains a Web site 
and offers continual training courses to enhance uniformity and 
skill among professional boxing and MMA referees and judges.
    Roughly 8 years ago, the ABC began working on uniform, 
standard safety rules for MMA, just had been done for boxing, 
and they were updated this past summer in 2016.
    The ABC receives no funds from the Federal Government but 
exists on the dues collected from state and tribal commissions 
and from registration at the annual educational and training 
symposium. The ABC has no employees; we have no contract help 
other than the occasional CPA. I am here on my own time. And 
ABC President Mike Mazzulli had hoped he could be here, and 
there is a brief statement from him included in the comments.
    The ABC's interest is always focused on fighter health and 
safety: How do we protect fighters, sometimes from themselves, 
and yet let them participate in the sports of their choosing? 
The interest on the fighters, the fair treatment of the 
fighters, and their future is always uppermost. Without these 
brave athlete souls, this meeting wouldn't even be held. And 
without the promoters putting on those shows, this meeting 
wouldn't be held. There is a delicate balance between the two.
    The Association of Boxing Commissions expanded their name 
this past summer to Association of Boxing Commissions and 
Combative Sports, as, clearly, the ABC is ready and willing to 
accept more responsibility of the Ali Act or some other bill 
directed at safety and to benefit the fighter passes.
    The ABC, among its many members, possess unique and 
valuable perspectives. I was actually a promoter for years. One 
of our board members was a fighter at one point. Another state 
commissioner that I know of trained fighters. This five-member 
board of directors for the ABC currently has 90 years' 
experience just between us, some of it regulatory, some 
participatory.
    Unlike some laws with good intentions, the Muhammad Ali Act 
has greatly contributed to competition standards in title 
fights, altered the way contracts are entered into between 
managers, promoters, and athletes. The simple fact is that if a 
bill will reduce MMA exploitation and enhance fighter safety 
and if it is something the fighters are ready for, the ABC, 
after seeing the final bill, will probably support the bill.
    The ABC does not concern itself with promoters and their 
needs regardless of whether they are a multibillion-dollar 
promoter or a small one found in the State of Alabama. It is 
the fighters with whom the ABC is most concerned.
    In closing, I would like to remind everyone that the small 
local promoter will also be required to adhere to changes in 
any law. The ABC's goal is uniform enforcement of protections.
    And my last comment would be, there is a balance between a 
business model and a sports model. I am not an expert enough to 
tell you what that is, but I think, with all of the committee's 
experience and dedication, you will arrive at those decisions.
    And the ABC is so grateful to be a part of this. Thank you 
for allowing me to testify.
    [The prepared statement of Ms. Robertson follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   

   
   
    Mr. Burgess. The chair thanks the gentlelady.
    The chair recognizes Dr. McKee, 5 minutes for your opening 
statement, please.

                  STATEMENT OF ANN MCKEE, M.D.

    Dr. McKee. Mr. Chairman and members of the committee, thank 
you for the invitation today to testify on mixed martial arts 
issues and perspectives.
    My name is Dr. Ann McKee. I am a professor of neurology and 
pathology at Boston University School of Medicine. I am chief 
of the neuropathology service for the VA Boston Healthcare 
System, and I am director of the CTE Center at Boston 
University. My testimony today reflects my personal 
professional opinion. I am not speaking officially on behalf of 
the Department of the Veterans Affairs or Boston University 
School of Medicine.
    CTE, or chronic traumatic encephalopathy, is a major 
problem in contact sports, such as boxing and football, and any 
other sport that involves a high number of head impacts, such 
as mixed martial arts. Even though there is not much research 
available on the long-term consequences of MMA, we know it has 
a high concussion rate and, importantly, it has a high 
subconcussive impact rate.
    CTE is a neurodegenerative disease triggered by repetitive 
head trauma that causes buildup of an abnormal protein called 
tau in the brain. The abnormal tau is toxic to nerve cells and 
causes a progressive brain deterioration over time. Symptoms of 
CTE include memory loss, confusion, impulse control problems, 
aggression, depression, and dementia.
    CTE was originally described in boxing and now has been 
found in many other sports. We found evidence of CTE in the 
only MMA fighter we examined, a 27 year old who took his own 
life, and there is good reason to believe that a significant 
portion of other MMA fighters are at risk for CTE. This is 
because exposure to repetitive head impacts is the major risk 
factor for CTE, and MMA fighters experience substantial head 
trauma during their fights as well as during their training and 
sparring sessions.
    There has been a primary focus on concussions in the 
development of CTE. Even the movie about CTE was named 
``Concussion.'' Yet all of our research to date points to the 
fact that CTE is associated with prolonged exposure to 
repetitive small impacts, the subconcussive hits that are 
asymptomatic.
    In sports like MMA, the risk for CTE is not directly 
related to concussions; rather, the risk for CTE is related to 
the cumulative exposure to subconcussions that occur with every 
blow to the head. The longer you play contact sports, the 
higher your exposure to repetitive head impacts and the higher 
the risk for CTE.
    Starting a contact sport at a young age often leads to a 
longer playing career and greater exposure to head trauma, but 
another factor that contributes to enhanced risk for young 
athletes is that the developing brain is more susceptible to 
damage from repetitive trauma.
    There is a lot of skepticism regarding the significance of 
CTE. For years, people have said that CTE was not a real 
disease. They say there is confusion and debate among 
scientists, that CTE cannot be distinguished from Alzheimer's 
disease or aging and epilepsy. But there is no scientific 
confusion about whether CTE exists. CTE not only exists, it is 
definitively diagnosed by neuropathologic examination of brain 
tissue.
    In 2015 and 2016, a panel of expert neuropathologists, 
convened by the National Institute of Neurologic Diseases and 
Stroke, determined that CTE was a unique disease that could be 
easily distinguished from other tau-based diseases. And they 
even went on to say there is a pathognomonic lesion for CTE--a 
brain lesion that is found in CTE that is not found in any 
other disorder and is specific for CTE.
    The other misinformation about CTE is that it is very rare, 
it has only been diagnosed in a few hundred people, and 
millions of people have played contact sports. But CTE is not 
rare. We would not be able to find 218 cases of CTE in 291 
athletes over the past 8 years if it were rare. If you don't 
look for something, don't know how to look for something, and 
don't find it, that doesn't mean that something is rare; it 
means it is underrecognized. Recent brain bank studies have 
shown that CTE is present in 5 percent of the general autopsy 
population.
    Now, if you were to ask me how to limit risk for CTE in 
MMA, in addition to the minimum standards previously suggested 
by Representative Denham, I would say: Don't allow children and 
young adults to participate in full contact with head strikes; 
educate fighters to limit their exposure so as to not allow 
head strikes in training and sparring; limit the number of head 
strikes during a match; and reduce the number of full-contact 
matches per season.
    CTE is a big problem from contact sports, and what we know 
today is very likely the tip of the iceberg. While we recognize 
the importance of contact sports to an athlete's physical and 
psychological well-being, CTE is a known and preventable 
consequence.
    There is great urgency for funding for CTE research and the 
risks associated with sports like MMA and military service. We 
need to bring hope to the players and veterans who are in the 
beginning of stages of CTE and showing signs of memory loss, 
behavioral changes, and depression. We need to develop 
effective interventions and treatments for CTE so that all 
individuals can continue to participate in the sports that they 
love but also live long, healthy, productive lives.
    Thank you.
    [The prepared statement of Dr. McKee follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    
    
    Mr. Burgess. The chair thanks the doctor.
    Mr. Couture, you are recognized for 5 minutes for an 
opening statement, please.

                   STATEMENT OF RANDY COUTURE

    Mr. Couture. Thank you, Mr. Chairman, and thank you to the 
members of the committee for having me here as a representative 
of Mixed Martial Arts Fighters Association, or fighters, and to 
give a mixed martial artist's perspective on a great sport.
    I have been a combative sports athlete since the age of 10, 
for over 40 years. I wrestled at Oklahoma State University. I 
was a three-time All American there and received a degree, a 
Bachelor of Arts, in foreign language and literature.
    I started my mixed martial arts career in 1997 as a 
wrestler, rolling years of wrestling experience into mixed 
martial arts. My first title fight was that year, in December 
of 1997. I am a six-time world champion in the sport of mixed 
martial arts through the UFC most of my career and fights took 
place.
    As an athlete, I want to give our perspective on what is 
going on in the sport and the things that we are up against.
    I think we fill out the same paperwork and are governed by 
the same regulatory committees in each state, the athletic 
commissions we fill out much of the same paperwork as boxers. 
There is one difference that is going on in mixed martial arts 
and a flaw in the structure, and that is that the regulatory 
promoter and the sanctioning body are one and the same person 
in mixed martial arts, which isn't the case in boxing.
    Independent sanctioning bodies are formed in boxing and 
licensed by the athletic commission to create rankings and 
titles for boxing. In mixed martial arts, the promoter does 
both of those jobs. He promotes the fights; he also creates 
those rankings and those titles for those fighters. That gives 
him an unfair advantage and reduces the ability of the fighter 
to negotiate a fair value in the marketplace.
    An obvious example of that is that recently the UFC, 
through Zuffa, sold for $4.25 million. If you do the simple 
math of the 16 years that they owned the company and how much 
they put out to the fighters during that time period, it is 
literally less than 10 percent of that amount.
    This is a significant problem. It creates a conflict of 
interest, where they create the titles and the rankings for us 
as fighters. If we want to participate, we have to sign a 
contract basically signing away a lot of our ancillary rights 
and abilities in sports that a lot of other athletes and the 
protections of the Ali Act give boxers.
    So what we are trying to accomplish is to get the Ali Act 
amended simply by changing the definition of what a boxer is to 
a combative sports athlete. Under those provisions, it 
standardizes contracts across the board, creates a separate 
independent agency to determine rankings and titles, and it 
allows us a free and open market for the promoters then to bid 
on those top fights and gives us a chance to estimate our fair 
value in the market and get our fair share of the revenues that 
are generated.
    Right now, the number-one promotion in the sport is the 
Ultimate Fighting Championship. They are garnering over 90 
percent of the income that comes from the sport. There are 
other promotions that are using this same, exact flawed model, 
creating their own titles and their own rankings, but obviously 
on a much smaller scale.
    We obviously realize this is a process, but it is our hope 
that you will consider amending the Ali Act to encompass and 
incorporate mixed martial arts and other combative sports that 
fall under it, just like boxing.
    Thank you guys very much for giving us a voice here.
    [The prepared statement of Mr. Couture follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    Mr. Burgess. The chair thanks the gentleman and thanks all 
of our witnesses for your testimony.
    I was going to excuse Representative Denham, but he has 
already excused himself. So noted.
    We will begin with the question-and-answer part of the 
hearing, and I am going to go first to Mr. Mullin of Oklahoma.
    Five minutes for your questions, please.
    Mr. Mullin. Wow, I never get to go first.
    Mr. Burgess. It is my last chance to let you go first.
    Mr. Mullin. It is your last chance. Well, we are ending the 
year with a bang.
    Hey, thank you, and thank for the witnesses for all showing 
up. I really do appreciate it.
    Appreciate, Ms. Robertson, you coming in here on your on 
behalf and representing the entity that we are looking for to 
maybe help with the ranking system. So we appreciate that.
    Dr. McKee, you are bringing a perspective that we all know 
about. We all know that the sport is violent, and it is a sport 
that we love, though, and why we look forward to working with 
you. We understand that, and that is part of what we are trying 
to do here. Because we feel like if we can negotiate better 
contracts, we don't have to fight as much.
    Randy, I want to go back to your testimony that you just 
said. Can you explain a little bit more about how the ranking 
system works, how it currently works and how it manipulates the 
fighters into basically seeing a take-it-or-leave-it attitude 
when it comes to getting a chance to fight for the title?
    Mr. Couture. Well, there is a definitely a take-it-or-
leave-it attitude that comes from the promoters. And a perfect 
example of that is, as you mentioned, the first show in Madison 
Square Garden in New York. And the number-one fighter and 
probably the most popular fighter right now on that card was 
Connor McGregor. He was the 145-pound champion for the Ultimate 
Fighting Championship. He was in that particular fight fighting 
for the 155-pound title belt. He would be the first athlete to 
hold two belts at the same time. He also is interested in 
pursuing a match with Floyd Mayweather in boxing.
    Because that kind of went against the grain with the 
Ultimate Fighting Championship, they stripped him of his belt 
at 145 pounds even though he had not been defeated in that 
weight class and hadn't actually competed in that weight class 
in a little while because he was attempting to do something 
historic in winning two championship belts at the same time. He 
was stripped of that title, and not only stripped of the title 
but dropped out of the top 10 rankings in that weight class 
even though he had not been defeated or competed there.
    So they in essence used their rankings and their titles to 
manipulate the fighters to toe the line, to do the things that 
they want them to do. And there are other examples of that. I 
am living proof of a similar thing and the kind of closed 
market that exists in our sport right now. I pursued in the 
height of my career as what most people considered the number-
two heavyweight in the world, I wanted to fight the number-one 
heavyweight in the world. How do you be considered the best in 
your sport? You fight the best guy out there. I was unable to 
see that fight happen through the Ultimate Fighting 
Championship and pursued that fight myself outside of that 
contract and was prevented. In fact, injunctions were filed and 
everything else to keep me from making that fight happen.
    At some point, I just had to recognize that I was in my 
forties and the clock was ticking and just went back and 
continued the rest of my career, but never got the chance to be 
considered the number-one fighter in the world based on the 
outcome of that fight.
    That conflict of interest gives the promoter a ton of power 
to manipulate the fighters, to manipulate the rankings. For 
them, it is just business. They are trying to get the most pay-
per-views sold and the most people to buy tickets, and they 
will do whatever they need to do to manipulate that ranking 
structure and those titles to do that.
    Mr. Mullin. Mr. Novitzky--did I say that last name right?
    Mr. Novitzky. Correct.
    Mr. Mullin. You talk about the anti-doping program, thank 
you so much. When I was fighting, it was very rare that anyone 
got tested. How long has the UFC implemented these rules with 
the doping?
    Mr. Novitzky. Our anti-doping policy went into effect last 
July 1, 2015.
    Mr. Mullin. 2015. And you guys are being real strong on 
that? You are not letting anything pass? I mean, you are making 
people make sure they test?
    Mr. Novitzky. Yes, well, actually, we have the United 
States Anti-Doping Agency, which is the officially recognized 
anti-doping agency of the United States for Olympic and 
Paralympic sports, administer our program. So that is one of 
the beauties of our program. The, I think, pillar of strength 
of our program is that we don't police ourselves. We have an 
independent authority.
    Mr. Mullin. Then tell me, how did Brock Lesnar get a pass 
just this past July to not have to test before a fight? He was 
waived, a 4-month waiver that when you are coming out of 
retirement, you are supposed to test for 4 months before you 
are able to come out of retirement, take a fight. However, he 
was waived, he didn't have to.
    Mr. Novitzky. Well, that is not accurate, that he had a 
pass in terms of testing.
    Mr. Mullin. Yes, I believe it is. And I can submit the 
article for the record, if you don't mind, Chairman.
    Mr. Novitzky. I would be happy to clarify what the 
situation was.
    Mr. Mullin. OK. And maybe we can do that, because I am 
running out of time.
    Before I run out of time, Mr. Chairman, I have a copy of 
the standard MMA fighter and promotional contract from the UFC 
that I would like to enter in the contract, just to make sure 
that the body understands what type of contracts our fighters 
are currently against and how three--being the promoter, being 
the contract holder, and being the person who controls the 
ranking is a direct conflict in interest for the fighters.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Mullin. I yield back.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for your questions, please.
    Ms. Schakowsky. Thank you.
    I want to follow up on head injuries. And, of course, they 
are inherent in mixed martial arts. We have heard all the 
dangers of concussions, but I wanted to underscore the threat 
posed by repetitive hits to the head, known as subconcussive 
hits, that do not result in concussions and often show no 
symptoms. My understanding is that subconcussive hits can be 
quite dangerous, as has been discussed.
    So, Dr. McKee, can you tell us what the evidence shows thus 
far in terms of the effect of the subconcussive hits on the 
brain? And have subconcussive hits, even in the absence of a 
concussion diagnosis, been linked to decreased cognitive 
functioning or changes in brain chemistry?
    Dr. McKee. Oh, absolutely. Subconcussions or just exposure 
to repetitive impacts, that is usually measured in exposure 
years to the sport, so the length of the playing career of a 
football player, a hockey player, that has been significantly 
associated with long-term cognitive impairment, apathy, and 
depression, not CTE, because those are living individuals. But 
we have also seen it in our brain autopsy series, where the 
longer a football player plays, the higher the risk for CTE.
    We know that in high school athletes, if you follow them 
for a single season in football, hockey, and soccer, even in 
the absence of a concussion, you will see MRI evidence of brain 
damage at the end of that season, not related to concussion, 
because none of those athletes had a concussion. So that is the 
subconcussive injury sustained by those amateur high school 
athletes in a single season showing up as brain damage on MRI 
and also some neuro-psych exams.
    Ms. Schakowsky. Now, you said because the players were 
living that it is hard to find out if they have CTE. What is 
the status right now of being able to diagnose CTE in living 
people?
    Dr. McKee. Well, there is a tremendous interest in that. 
Obviously, that is one of the stumbling blocks for really 
understanding how common the disease is. There is a tremendous 
interest.
    Many academic centers, Mt. Sinai, Boston, Mass General, 
UCLA, many centers are looking at diagnosing CTE using what 
they call a PET tau ligand, or a way to image tau in the brain 
just with an injection. And that is looking very promising. 
There have been some case reports reported, and we are looking 
now for the big series of being able to confidently say this is 
CTE in living individuals.
    There has also been a lot of advance in blood biomarkers, 
looking at things like ratio of hyperphosphorylated tau to tau 
in the blood and in the plasma; different biomarkers like 
something called neurofilaments.
    So we are really on the verge, I think in the next 2 to 5 
years we are going to nail this down. There have been 
tremendous, explosive advances.
    Ms. Schakowsky. Well, I would suggest that Members of 
Congress who are really interested in these kinds of sports, 
and especially because of youth sports and the exposure of kids 
who see these athletes as role models, that we really push for 
that kind of research so that we could make sure that we know 
more before someone dies.
    Dr. McKee. Yes, absolutely.
    And I think we also need long-term perspective studies of 
thousands of amateur athletes, high school athletes, following 
them so that we can learn what those subtle symptoms are in the 
very beginnings of this disease so we know when to intervene, 
to maybe develop some therapies that would make it less likely 
that they would develop CTE.
    Right now, we are really operating in the dark. We don't 
have any diagnosis except after death. There is a huge need to 
understand the effects of sports trauma. We know that sports 
are important; we don't want our kids to stop playing sports. 
But we have to understand the risks, and that is going to 
require funding for some of these long-term projects.
    Ms. Schakowsky. Thank you.
    Mr. Couture, we have heard that the structure of the MMA 
system does not give fighters sufficient bargaining power with 
regard to their contracts. I am concerned about the effect that 
has on the health and safety of fighters. If a fighter is hurt, 
does he have pressure to fight again instead of waiting to heal 
because he needs to fight to get paid?
    We have talked that injuries can occur in the lead-up to 
the fight, but there is no compensation, there is no health 
insurance, there is no nothing until you actually fight. So are 
they pressured into the fight?
    Mr. Couture. Well, there is certainly some pressure 
involved in that. You are not going to get paid for all the 
training and everything you did leading up to fight night. So 
if you were injured or any of those things in the course of 
that training, obviously, if you are unable to compete, you 
have done all that for nothing, you are not going to get paid.
    So that is certainly, I don't know a single fight that I 
didn't walk into that I didn't have some nagging injuries, 
whether it be a sprained thumb from sparring or a sore ankle or 
whatever. But certainly something like a knockout or something 
like that is a rare occasion in fighting. That is why we have 
great teams, guys that we trust that we train with, and we 
train very, very hard. It is still a contact sport. But that is 
an important piece of the puzzle.
    So I definitely think there is some pressure there. You 
want to get to fight night, and you are going to do whatever 
you need to do to get to go out there on your opportunity and 
show what you have trained to do.
    I think we fall under the same guidelines as boxing, where 
CT scans and blood tests and all of the medical procedures to 
ensure that we are healthy going into that fight are taking 
place. We are getting the physicals the day of weigh-ins and 
all those things, just like boxers and other combative sports 
athletes.
    And if you get knocked out in a fight or you are injured in 
a fight, the first place you go is to the hospital. You are 
getting a CT scan to make sure there is nothing seriously wrong 
going in there that stemmed from that competition.
    And then there are mandatory suspensions. Those things are 
a regular practice, mandatory. If you get knocked down or 
knocked out, you are going to get a 90-day suspension right off 
the top. And then, depending on the outcome of that CT scan 
from that night, they are going to determine if that needs to 
be a little longer, if it needs to be extended to give you more 
time to heal up before you even spar again, let alone compete 
again.
    So I think there are safety procedures in place that are 
implemented and regulated by the athletic commissions that put 
on combative sports across the country. Do we need----
    Ms. Schakowsky. But not in MMA, you are saying.
    Mr. Couture. Well, those same things happen in MMA. The 
difference is, if I was Floyd Mayweather, making the kind of 
money he made as a boxer, he could fight one time a year. He is 
only in training camp for that 2- or 3-month period to fight 
that one time a year. And he may not have to fight for a year 
or two, until he wants to again, frankly. In mixed martial 
arts, I don't really have that luxury if I want to make a 
decent living in the sport that I love.
    Ms. Schakowsky. Thank you.
    I yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes the gentleman from Massachusetts, Mr. 
Kennedy, 5 minutes for questions, please.
    Mr. Kennedy. Thank you, Dr. Burgess. I want to thank you 
for having this hearing, along with the ranking member as well.
    I want to thank the witnesses for being here, particularly 
Dr. McKee and all the work that you do up back home for me at 
Boston University. Thank you. Thank you for being here.
    And I know he has been recognized by a couple other of my 
colleagues here so far, but we wouldn't be here, obviously, if 
not for the efforts of Mr. Mullin. And I know his passion for 
this stems from his experience with it. So I want to thank my 
colleague from Oklahoma for his leadership on this.
    MMA promoters have been criticized for imposing restrictive 
contracts and not allowing fighters the ability to negotiate 
terms of those contracts.
    I want to start, Mr. Couture, with you. Can you expand on 
the issue? I know some of this has already been touched on; I 
know you have touched upon it a bit. But why don't fighters 
have more bargaining power when they enter contracts with 
promoters?
    Mr. Couture. There is no transparency from the promoter in 
what is actually made off of the particular bout that you are 
in, so then you have no real way to judge what your true value 
is in that particular fight. And they control the rankings and 
who gets shots at the titles.
    Mr. Kennedy. So talk to me a little bit about that. What 
value would an independent ranking system have for you, and how 
would that help fighters gain bargaining power?
    Mr. Couture. An independent ranking structure would create 
an open market where promoters across the board from whatever 
promotion could then bid on making that independent rank and 
those top fights for those best athletes happen regardless. It 
would eliminate the exclusivity of the contracts.
    Right now, every promotion is forcing athletes to sign a 
contract that is exclusive to that promotion. What if Wimbledon 
forced all the top tennis players to sign an exclusive contract 
to compete in Wimbledon for that title? That is in essence what 
the UFC does right now. They are that Wimbledon, the U.S. Open, 
the Australian Open, the French Open, they would all dwindle 
and go away, because they would no longer have access to those 
top athletes that are forced to sign that exclusive contract.
    Mr. Kennedy. And so, focusing on the ranking system there, 
can you also talk to me a little bit--and I heard a little bit 
about this yesterday, but the typical payment structure for MMA 
fighters. And I know you touched on this a little bit.
    Mr. Couture. The payment structure?
    Mr. Kennedy. Yes.
    Mr. Couture. Right now, it is something that your manager 
and you negotiate with a promoter to get. The top 5 percent of 
the athletes in our sport make a pretty decent living. Is it 
compared to what Floyd Mayweather and other boxers and other 
athletes in other sports make? Not even close.
    Mr. Kennedy. What about the 95 percent?
    Mr. Couture. But there is 95 percent of the athletes in our 
sport that are struggling to make a living and can't----
    Mr. Kennedy. What is ``struggling to make a living''?
    Mr. Couture [continuing]. Can't compete. Well, the lower-
tier fighters are making $5,000 and $5,000--$5,000 to show up 
and fight, $5,000 if they win that fight. How many times do you 
have to fight in a year, when a training process takes 10 to 12 
weeks, to make a decent living when you are making $10,000 off 
that fight?
    Mr. Kennedy. And how many fights does a typical MMA fighter 
go through, given what you know and----
    Mr. Couture. In a given year?
    Mr. Kennedy. Yes.
    Mr. Couture. I think between----
    Mr. Kennedy. And to do in a way that is safe for you and--
--
    Mr. Couture. Well, I mean, it takes me 10 to 12 weeks to 
prepare for one fight. If I fought three or four times through 
the course that year, that is 48 weeks that I am in training, 
preparing, in a 52-week year. So there are some fighters that 
are more active than that and fight more than that, but that is 
a pretty good indication of----
    Mr. Kennedy. And talk to me a little bit about 
endorsements. How does the endorsement structure work?
    Mr. Couture. Well, the endorsement structure has changed 
with that particular promotion to UFC. We used to be able to go 
out and develop relationships, and I had people that have 
sponsored me since I first started fighting, that grew with me 
through the exposure that they got from my success as a 
fighter. Much of that went away with the UFC and fighters that 
are under contract with the UFC when they forced the fighters 
under contract for them to wear uniforms made by Reebok. They 
signed a deal with Reebok for $70 million, and that requires 
all athletes to wear that uniform, and no longer are they able 
to go out and garner their own sponsors in the various niche 
supporters of the sport.
    Mr. Kennedy. So that would be supplemental income that you 
had on top of the 5 and 5 that you said was the lower range.
    Mr. Couture. Actually, many of those mid- and lower-tier 
fighters could make just as much from going out and garnering 
sponsorship for the exposure they are going to get in that 
particular fight as they were getting for their fight purse in 
the first place, and that went away for them.
    Mr. Kennedy. And that limited doing that.
    I have about 30 seconds left. I want to build off of what 
Ms. Schakowsky touched on and you touched on. My understanding 
is that for injuries suffered during a fight, that that is 
covered from the health care that is provided from the league, 
if you will.
    What about injuries suffered during training? What happens 
there? How does that work? I would imagine that, as you said, 
you often--if you are sparring for 10 to 12 weeks per fight, I 
imagine that is pretty physical.
    Mr. Couture. Well, obviously, if you are injured during the 
course of the night, the insurance rider for that fight, for 
that competition, covers whatever happens.
    Through my dealings with the UFC, because I have had 
several contract disputes over ancillary rights and other 
things with the company, out of that, one of my complaints was, 
what about these guys that get injured in the course of 
training getting ready for a fight? Now they can't fight. Not 
only do they not get paid because they couldn't make it to the 
fight, but now they are responsible, because of lack of 
insurance for most fighters, to take care of whatever that 
injury was.
    The UFC right now is the only promotion that does this, but 
they have implemented an accident insurance policy. So if there 
is an accident, now, if you are sick or got the flu or 
whatever, you are still on your own. But if there is an 
accident in training, that accident policy is in place. It is 
not a great policy, but at least it is better than nothing.
    Mr. Kennedy. What is an accident? Like, you would break my 
rib?
    Mr. Couture. Something like that.
    Mr. Kennedy. I would imagine.
    Mr. Couture. It is a contact sport. Sometimes those types 
of things happen. You get cut. Sometimes you get cut.
    Mr. Kennedy. So is that covered?
    Mr. Couture [continuing]. A head clash, you might need 
stitches. Who is going to pay for those stitches?
    Mr. Kennedy. I don't normally head-butt all that often in 
my business here. I try not to, anyway.
    Mr. Couture. But as a sport, on the whole, that is the only 
accident policy that is in place. Fighters, on the whole, 
across the board, are on their own.
    Mr. Kennedy. Sounds like a strong endorsement for 
ObamaCare, Mr. Chairman.
    Thank you very much.
    Mr. Burgess. I have a different interpretation.
    The chair would recognize Mr. Rush for 5 minutes for 
questions, please.
    Mr. Rush. I certainly want to thank you, Mr. Chairman.
    And I want to thank all the witnesses who are before us 
today.
    I want to direct my questions to Ms. Robertson.
    You are the treasurer of the Association of Boxing 
Commissions, plural. Tell me a little bit about the boxing 
commissions. I want to know, what is that?
    Ms. Robertson. Those are the regulatory bodies spread 
across the Nation, almost always a state agency. My personal 
state is housed under the Arkansas Department of Health. Some 
are under Commerce, some are under Licensing and Regulation.
    And each state has created a commission so that they can 
have a department that enforces the Muhammad Ali Professional 
Boxing Act. And that includes tribal governments as well. Not 
every tribal government promotes or hosts MMA or boxing, but if 
they do, there is a real push for them to be part of our 
training symposiums, our officials' training.
    Mr. Rush. So, in terms of governance, do they have any 
teeth, power in terms of governance? Do they really call the 
shots?
    Ms. Robertson. I can't speak for every state, but, yes, the 
ones that I am familiar with. California has an excellent 
program, and they control every item of it. In my home State of 
Arkansas, no matter what violation, the way the law is written 
in Arkansas, nothing that a licensee does is a felony, but they 
are very fineable misdemeanors.
    So, yes, to the best of my knowledge, all of them have a 
hammer that they can require enforcement of the minimum 
standard rules.
    Mr. Rush. Yes. I was a proponent and worked on the Muhammad 
Ali Act, and I certainly am supportive of it. And I am 
supportive of expanding these protections.
    In your testimony, you mentioned MMA fighter exploitation. 
And I think that we heard some testimony today that would bring 
attention to fighter exploitation. Is that a pervasive problem 
now in the industry?
    Ms. Robertson. I think that if you talked to the 
participants, the answer is: Most definitely. I think that if 
you speak to various other components, they would say: Not so 
much. It is really a question, whatever legislation is passed 
will be enforced on a local level for a small promoter just as 
it would be enforced all the way up the chain to whatever major 
promotion there is.
    In my State of Arkansas, we have never had the benefit of 
one of the major MMA shows, so I have never actually held a 
contract in my hand. I would like to be able to speak first-
person on that, so I really can't address that. The fighters 
that I hear from, they do talk about exploitation.
    Mr. Rush. Does anybody else on the panel have more of a 
direct experience with exploitation that you want to highlight 
here before this committee?
    OK. Well, moving on, because my time is running out, this 
Congress is like a 10,000-pound elephant, moves around quite 
slowly. How can we help you? What do you suggest? What are you 
thinking? How can we be of assistance to you?
    Ms. Robertson. The Association of Boxing Commissions and 
Combative Sports welcomes the idea of having more authority or 
aiding in the enforcement of proper regulations. We already 
have passed minimum standard rules for MMA. We have fouls, we 
have training, we are there. We just don't have any teeth to do 
any other kind of enforcement.
    In boxing, as I think Representative Denham alluded to, in 
boxing, when it comes down to making the contract, the ABC 
actually recognizes the sanctioning bodies. They have to make 
application; that has to be published. The fighters know what 
the standards are. And we don't have those kind of teeth in the 
MMA industry.
    So we even expanded our name this year so that we could 
make sure everyone knows, we are here for all combative sports. 
So it is the Association of Boxing Commissions and Combative 
Sports.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Burgess. The chair thanks the gentleman.
    The chair does wish to recognize that, in a true sense of 
harmony in the season, and I allowed every other member to go 
first because I wasn't sure when we were going to call votes. 
So I will recognize myself, 5 minutes for questions.
    Ms. Robertson, first, it is an unrelated question, but you 
are a graduate of Arkansas Tech. Is that correct?
    Ms. Robertson. I am.
    Mr. Burgess. My wife graduated from Arkansas Tech.
    Ms. Robertson. Go, Wonder Boys.
    Mr. Burgess. There you go.
    Let me just ask you and Mr. Novitzky, Dr. McKee provided us 
in her testimony four items, and I would just like to go 
through those individually and have both of you respond to 
whether or not these are something that could possibly happen 
with whatever regulation occurs through UFC and through the 
commissioners.
    Don't allow children and young adults to participate in 
full contact with head strikes. Mr. Novitzky, is that something 
that UFC could live with?
    Mr. Novitzky. Absolutely, we would be in favor and we are 
favorable of that.
    Mr. Burgess. Ms. Robertson?
    Ms. Robertson. Generally, the Association of Boxing 
Commissions has taken a position against youth pankration. 
Manipulating joints is also very dangerous. And we also are 
concerned right now about the cultism of weight loss, which has 
been proven to contribute to the head injuries.
    Mr. Burgess. Yes, we might get into that a little bit more, 
with the trickle-down effect of role models.
    The second item was to educate fighters so that they learn 
the greatest opportunity to limit exposure and not allow head 
strikes in training and sparring exercises.
    Mr. Novitzky?
    Mr. Novitzky. Absolutely. And I think we are seeing a lot 
more of that in training techniques and definitely with our UFC 
fighters.
    And that is one of the things, as I talked about in my 
opening statement, with the under-construction Athlete Health 
and Performance Center, where the idea is we would bring in 
athletes, free of charge, to come in and learn training 
techniques and be educated in areas about avoiding 
subconcussive hits during training and then be able to take 
that back out to their gyms, not only in the United States but 
throughout the world, and educate and allow fighters to train 
in a much smarter level and safer level.
    Mr. Burgess. Very good.
    Ms. Robertson, from the commissioners' standpoint?
    Ms. Robertson. To the best of my knowledge, very few states 
in America have the resources to foray into regulation of 
boxing or MMA gyms. I know in my home state that is out of the 
purview of the law.
    Mr. Burgess. Let me just interrupt for a second, because I 
don't think she was asking for a regulation, just educating 
fighters to learn the greatest opportunity to limit exposure as 
to not allow head strikes.
    That seems fairly straightforward. Would the commissioners 
be in favor of that?
    Ms. Robertson. Yes, the ABC would be in favor of that.
    Mr. Burgess. Her third recommendation is to limit the 
number of head strikes in a match.
    Mr. Novitzky, you are probably the best person to speak to 
that. Is that done now, or is that possible?
    Mr. Novitzky. Yes. We have some of the best referees in the 
world in MMA, which, their job within the octagon is to look 
out for the fighter. And so you regularly see fights stopped 
when there are multiple head hits on a fighter.
    Mr. Burgess. What is the magic number?
    Mr. Novitzky. I don't know if there is a magic number.
    Mr. Burgess. OK.
    And then the fourth item is to reduce the number of full-
contact matches per season, which Mr. Couture already spoke to 
that, of course, is an income-limiting event.
    But just in general, UFC would be OK with that?
    Mr. Novitzky. Yes. And Mr. Couture also spoke about 
mandatory medical suspensions, and that is something that MMA 
has, I think, better than any other sport. Somebody who is 
concussed in a match can get up to 6 months' mandatory medical 
suspension, where they can't have any contact for that period 
of time. So, depending on the damage that a fighter takes----
    Mr. Burgess. Well, let me just interrupt you for a second 
because I am going to run out of time too, and I hate to cut 
myself off.
    But, Dr. McKee, you said this is not necessarily related to 
a concussion. It is the repetitive small-volume injuries or 
small percussive injuries that occur. Is that correct?
    Dr. McKee. I did, but I didn't want to minimize the fact of 
concussion as a brain injury as well. So I do think they should 
be removed from the sport if they have a concussion and not 
allowed to return until they are fully recovered. I am just 
trying to eliminate these smaller asymptomatic hits that we 
know accumulate over time.
    Mr. Burgess. And do you have a quantitative number for us 
on the number of head strikes that should be allowed with any 
given match or any given year or any given career?
    Dr. McKee. No.
    Mr. Burgess. Well, I appreciate all of your answers on 
that.
    Dr. McKee and Mr. Couture, my understanding, and I realize 
it is fairly rudimentary of the sport, but my understanding is 
the specific equipment required of the athlete is fairly 
minimal. Is that correct, Mr. Couture?
    Mr. Couture. The equipment required at the professional 
level is a cup and gloves. Obviously, the gloves are for us to 
allow grip and grappling. But I don't think those are really 
the issue.
    Mr. Burgess. So there is no helmet involved in this sport?
    Mr. Couture. Well, we wear headgear.
    Mr. Burgess. Oh, you do.
    Mr. Couture. In training, not in competition. It is a 
professional sport like boxing. And the diversion of amateur 
boxing versus professional boxing, amateur boxers wear headgear 
when they compete, professionals do not. Same thing is true in 
our sport.
    Mr. Burgess. Oh, I didn't know that. That is interesting.
    Dr. McKee, do you have an opinion as to whether or not that 
would make a difference?
    Dr. McKee. Well, I think improvements can always be made 
with headgear. It won't eliminate the problem, but we can 
certainly mitigate it or reduce the injury with headgear.
    Mr. Burgess. OK.
    And I know my time has run out, and I want to be respectful 
of everyone else's time. But, Ms. Robertson, I just need to ask 
you on this whole notion of the independent sanctioning, is 
that something that the commissioners have looked at, that the 
person who promotes the boxer shouldn't be the one who is, or 
not the boxer, but the athlete should not be the one who is 
then controlling the endorsements and the number of matches and 
whether or not they are on a card?
    Ms. Robertson. That was set forth in the Muhammad Ali Act, 
and it did not require input from me. Is it something that we 
favor? I believe, personally, I am not speaking for the 
association, I believe that the Muhammad Ali Act did enhance 
anti-exploitation of their contract, but it also greatly 
reduced the number of events.
    Mr. Burgess. Right, which gets to the difficulty that Mr. 
Couture talked about, the difficulty in earning a living when 
your number of events are restricted.
    Mr. Couture. Yes, sir.
    Mr. Burgess. But the limitation on your endorsements, that 
is also a significant impediment to income. Is that correct?
    Mr. Couture. Some of that goes hand-in-hand with the power 
and basic monopoly that that particular promotion has in the 
sport, because they are allowed to set their own rankings and 
create their own titles, which isn't done in boxing and which 
is governed by the Muhammad Ali Act, which is why we are 
seeking to get the act expanded to include mixed martial 
artists and combative sports athletes from other sports.
    Mr. Burgess. OK. And I do, of course, acknowledge this is 
not a legislative hearing; this is an informational exercise. 
But Mr. Mullin's language is language that is favorable to what 
you seek?
    Mr. Couture. Yes, sir.
    Mr. Burgess. Does anyone have a different opinion, the 
language in Mr. Mullin's bill would be detrimental to the sport 
or to the athlete?
    Mr. Novitzky. I have a concern about the open ranking 
system that involves other promotions as it relates to health 
and safety, in that if a UFC fighter who is under the most 
stringent, comprehensive, robust anti-doping program in 
professional sports in the world is forced to fight a fighter 
from another promotion that may not have any out-of-competition 
anti-doping program, that is clearly a health and safety risk 
to our fighter.
    Mr. Burgess. And a competitive disadvantage.
    Mr. Novitzky. Correct.
    Mr. Burgess. So recognized, which you alluded to, I think, 
in one of your statements. People who do use performance-
enhancing drugs do so because they see it as a defensive 
posture, because, doggone it, everybody else is doing it, and 
if I don't, I will get hurt.
    Mr. Novitzky. Absolutely.
    Mr. Burgess. Well, I want to thank everybody. Seeing no 
other members wishing to ask questions, I do want to thank our 
panel. It has been an illuminating discussion this morning.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a fighter contract submitted by Mr. Mullin; an article 
explaining the contract; a letter from the ABC.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. And pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record. I ask the witnesses to submit their 
responses to those questions within 10 business days upon 
receipt of the question.
    And, without objection, the subcommittee is adjourned. 
Thank you all.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Many of us remember the major boxing matches of the 
century. Ali v. Frasier and Tyson v. Holyfield immediately 
spring to mind and were two of the most talked-about sporting 
events of their time.
    Soon, we may be looking back on major mixed martial arts 
contests and trading stories about where we were when a 
heavyweight MMA title went down.
    But right now, we are in a transition. MMA has not 
surpassed major boxing events in ratings, but looks to one day 
be a contender. Some state regulators know as much about MMA 
already as they do about boxing. Others are catching up.
    When a phenomenon goes mainstream, Congress needs to be 
informed, especially when health and safety are involved. So 
I'm happy to kick this off and set the table for next Congress.
    As a die-hard fan of the Chicago Cubs, I understand the 
importance of competition. On the field or in the ring, sports 
bring us together and bring out the best in us. They have an 
extraordinary impact on our lives from childhood through 
adulthood and represent many threads in the fabric of American 
life.
    This is why it's so important to ensure the safety of 
competitors, whether they're fighters or players. If Congress 
is to play a role in MMA, we must understand the industry. We 
must understand the politics and we must understand the sport 
itself.
    We must begin to answer the questions around MMA. What 
lessons did we learn from boxing that can be applied to MMA? 
Are states adequately equipped to regulate the sport or is 
there a federal role? What are the problems plaguing various 
players in the industry and are policymakers well equipped to 
solve those problems?
    I think the witnesses for their participation today and 
look forward to working through these and other questions.
                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
